t

Ur'

V

v* i,j

V

/ry

Supreme Court, U.S.
FILED

- U'
K *>'

NO.:

J

SEP 1 8 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Harold Warren - Petitioner;
v.

State of Indiana - Respondent;

PETITION FOR WRIT OF CERTIORARI

\

Attorney for Petitioner:
Harold Warren #104516
Pendleton Correctional Facility
4490 West Reformatory Road
Pendleton, IN 46064-9001
Petitioner / pro se

RECEIVED
SEP 2 3 2020

J

QUESTIONS PRESENTED
Whether the Indiana Court of Appeals’ precedent published in Warren v. State, 2020 Ind. App.
LEXIS 143 (Ind. Ct. App. 2020) addressing Warren’s Ineffective Assistance of Counsel Claim
has set the bar for the Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d
674 (1984) Sixth Amendment’s prejudice prong much too high when it employed the rationale
that Warren’s evidence did not exonerate him but merely implicated other potential suspects. The
applicable standard is not whether there was sufficient evidence to affirm a conviction on appeal
but whether a jury could reasonably have reached a different outcome but for counsel’s
unprofessional mistakes, and that Standard only requires a reasonable doubt. The Indiana Court
of Appeals belittles the Sixth Amendment and undermines the Bill of Rights guarantee that all
citizens shall have the right to a fair trial. This right to a fair trial is sacrosanct regardless of
whether the Court of Appeals thinks Warren committed this crime; whether or not he committed
the crime is immaterial. What matters here is whether there is a reasonable probability a jury of
his peers could have reached a different outcome. Warren’s trial was unfair due to his counsel’s
decidedly unprofessional mistakes found to be deficient and unprofessional, and the published
opinion sets a dangerous precedent and created a new hurdle that contradicts well-established
and longstanding stare decisis.

n

&

LIST OF PARTIES
1X1 AH parties appear in the caption of the case on the cover page.
1 I All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

;

111

TABLE OF CONTENTS
Opinions Below,

1

Jurisdiction,

2

Constitutional and Statutory Provisions Involved,

3

Statement of the Case

4

Reasons for Granting the Writ.

11

Conclusion,

20
INDEX TO APPENDICES

Appendix A - Indiana Supreme Court Order Denying Petition to Transfer
Appendix B - Indiana Court of Appeals Opinion Affirming Post-Conviction Relief
Appeal
Appendix C - Marion County Superior Court Findings of Fact and Conclusion of Law
denying Post-Conviction Relief
Appendix D - Brief of Appellant (Indiana Court of Appeals)
Appendix E - Notice of Additional Authorities (Indiana Court of Appeals)
Appendix F - Appellee Brief (Indiana Court of Appeals)
Appendix G - Reply Brief of Appellant (Indiana Court of Appeals)
Appendix H - Petition to Transfer (Indiana Supreme Court)
Appendix I

- Brief in Response to Transfer (Indiana Court of Appeals)

Appendix J

- Reply Brief of Appellant in Support of Transfer (Indiana Court of Appeals)

Appendix K - Post-Conviction Relief Evidentiary Hearing Transcripts

IV

i

TABLE OF AUTHORITIES CITED
PAGE NUMBER:

CASES:
Board of Comm ’rs v. Flowers, 186 Ind. App. 597, 599, 201 N.E.2d 571,
1964 Ind. App. LEXIS 212 (Ind. Ct. App. October 14, 1964).................

16

Faretta v. California, 422 U.S. 806, 834 (1975)

18

Gideon v. Wainwright, 372 U. S. 335, 348-345, 83 S. Ct. 792,
9 L. Ed. 2d 799(1963).............................................................

19

G.K. v. State, 104 N.E.8d 598, 601- 02 (Ind. 2018)

18

Houston v. State, 730 N.E.2d 1247, 1248 (Ind. 2000)

11

J.J. v. State, 858 N.E.2d 244 (Ind. Ct. App. 2006)

12, 13

Rowe v. State, 704 N.E.2d 1104 (Ind. Ct. App. 1999)

14, 15

S.&S. Truck Repairs v. Mofield, 556 N.E.2d 1313, 1314 (Ind. 1990)
Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052,
80 L. Ed. 2d 674(1984)...........................................................

16

ii, 10,11,12, 15, 17, 18, 20

Sullivan v. Louisiana, 5o8 U.S. 2’76, 279, 113 S. Ct. 2078, 124 L. Ed. 2d 182 (1993)

19

Toledo, S. L. & W. R. Co. v. Home Ins. Co., 53 Ind. App. 459, 463,
101 N.E. 1035, 1913 Ind. App. LEXIS 213 (Ind. Ct. App. May 27, 1913)

16

United States v. Bagley, 473 U.S. 667, 678, 105 S. Ct. 3375, 87 L. Ed. 2d 481,
1985 U.S. LEXIS 130, 53 U.S.L.W. 5084)........................................................

14

Vasquez v. Hillery, 474 U.S. 254, 255 (1986)

18

Warren v. State, 2020 Ind. App. LEXIS 143 (Ind. Ct. App. 2020)
Warren v. State, 757 N.E.2d 995, 997 (Ind.2001)
Weaver v. Massachusetts, 137 S. Ct. 1899, 198 L. Ed. 2d 420 (2017)

v

ii, 20
4,5
17, 18, 19

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that this Honorable Court issue a writ of certiorari to
review the judgment below.
OPINIONS BELOW
I I For cases from federal courts: N/A
The opinion of the United States court of appeals appears at Appendix
and isI I reported at

to the petition

.; or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.
The opinion of the United States district court appears at Appendix
and isI I reported at________________________________________

to the petition

or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.

X For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix A to the
petition and isX reported at Warren v. State, 2020 Ind. Lexis 586; or,
1 1 has been designated for publication but is not yet reporter; or,
1X1 is unpublished.
The opinion of the Indiana Court of Appeals appears at Appendix B to the petition and
1S-

IX reported at Warren v. State, 2020 Ind. App. LEXIS 143 (Ind. Ct. App. 2020); or,
1 I has been designated for publication but is not yet reporter; or,
1 1 is unpublished.

1

JURISDICTION
I I For cases from federal courts: N/A
The date on which the United States court of appeals decided my case was
A copy of that decision appears at Appendix___ .
I I No petition for rehearing was timely filed in my case.
I I A timely petition for rehearing was denied by the United States court of appeals on
the following date:_________
20__, and a copy of the order denying
rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
including
20__, on
20__, in Application
No.
and a copy of the order granting said extension appears at Appendix___ .
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
[3 For cases from state courts:
The date on which the highest state court decided my case was July 23, 2020.
A copy of that decision appears at Appendix A.
[X] No petition for rehearing was timely filed in my case. Indiana Court Rules prohibit a
Petition for Rehearing in the Indiana Supreme Court for denying a Petition to
Transfer.
I I A timely petition for rehearing was denied on the following date:___
20__, and a copy of the order denying rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
including
, 20__, on
20__, in Application
No.__, and a copy of the order granting said extension appears at Appendix
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

-2-

CONSTITUTIONAL PROVISIONS AND STATUTES

Amendment 5
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by
an impartial jury of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.

Amendment 14
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

-3-

STATEMENT OF THE CASE

Jack Dorfman, an Indianapolis shopkeeper whose store was located on East Washington
Street in Irvington, was murdered in the backroom of his store. Mr. Dorfman purchased jewelry
and precious metals, which he melted down to sell. He also cashed checks for patrons of a
nearby plasma center, the Plasma Alliance. On January 7, 1999, Mr. Dorfman opened his shop
around 9:00 AM as was his routine. Steve Jordan, the proprietor of a nearby business, PIP
Printing, told law enforcement investigators that Mr. Dorfman parked in the PIP parking lot that
morning due to snow. Mr. Jordan told investigators that Mr. Dorfman was carrying a bag of
doughnuts, a bundle of cash, and his morning newspaper.
Approximately a half hour after Mr. Dorfman left PIP printing, Mr. Jordan noticed a
black pick-up truck pull in to the’parking lot, and a person. Mr. Jordan could only see the black
truck’s user from the back, which was walking west towards Mr. Dorfman’s shop. About 11:00
AM, a customer arrived at Mr. Dorfman’s shop and found him dead on the floor in the
backroom. The patron ran to the shop across the street where he asked the owners to call the
police. Police received the call at approximately 11:10 AM and arrived a few minutes later.
The cause of Mr. Dorfman’ s death was a single gunshot wound which entered the left
side of his head behind his ear. The State’s firearms expert testified the fragmented bullet
recovered was “consistent with a twenty-two caliber lead bullet.” The expert could not link the
bullet with a particular gun. Warren v. State, 757 N.E.2d 995, 997 (Ind.2001). State’s witness
Paul Fancher testified to purchasing a .22 caliber revolver from Warren’s brother, Ron Warren,
three days after Mr. Dorfman’s murder. Id.
Trial Counsel, Carl Epstein, moved for a mistrial after Mr. Fancher provided prejudicial
testimony and impermissible evidence. The trial Court denied the mistrial motion, ordered the
-4-

jury to disregard Fancher’s testimony, and ordered the testimony stricken from the Record. Id. at
pp. 997 98. Warren’s appellate Counsel, Brent Westerfeld, raised the denial of the mistrial on
direct appeal.1 The Indiana Supreme Court considered this issue and determined Fancher’s
testimony was “not so prejudicial and inflammatory as to place the defendant in a position of
grave peril to which he should not have been subjected . . . .” Id. at p. 998.
The evidence most damaging to Warren at trial was: (a) his admission to police that he
was in Mr. Dorfman’s shop the'day of the murder; (b) that his alleged partial fingerprint was
found on a pawn ticket found on the countertop at Mr. Dorfman’s shop; and (c) that he had Mr.
Dorfman’s credit cards and used them to purchase or attempt to purchase items at various
locations. Id at 999. The Indiana Supreme Court specifically cited the strength of this evidence
against Warren when it rejected his argument regarding the mistrial. Id.
Warren’s July 13, 2017 post conviction petition alleged that Mr. Epstein was ineffective
when he failed to: (1) present crucial evidence about an alternative suspect, in particular
testimony from Appellant’s brother, Larry Warren (hereafter ’’Larry”) and Larry’s then—
girlfriend, Dana Roberson; (2) present expert testimony regarding the fingerprint analysis;
and (3) subpoena defense witnesses, specifically Larry and Ms. Roberson. App. Vol. II at pp. 11
-18.
On March 30, 2018, Warren moved to amend his petition to add the claim that Mr.
Epstein failed to offer evidence that another person’s fingerprint was found on cellophane in the
backroom of the shop, the room where Mr. Dorfman’s body was found. During the April 24,
2018 evidentiary hearing, Post Conviction Counsel moved to correct the mistaken allegation that
a ’’latent print” was found on the pawn ticket, when in fact only a partial “inked print” was

Warren’s direct appeal was perfected in 2001, before the appellate rules changed. Thus, the direct appeal was to
the Indiana Supreme Court.

-5 -

found. (PCR Tr. at p. 14 - Appendix K). The probable cause affidavit indicates a latent print was
found on the pawn ticket. During the post conviction hearing, Mr. Epstein testified the
fingerprint evidence was “inconclusive.” (PCR Tr. at p. 30 - Appendix K). Initially, the
fingerprint examiner determined Warren’s fingerprint did not match the recovered fingerprints.
During trial, the fingerprint examiner, Michael Knapp, testified the inked fingerprint he
found on the pawn ticket (State’s Ex. 29) was partially smudged but that it did identify to
Warren. Mr. Knapp reported he made this positive identification after again taking Warren’s
fingerprints about 15 minutes before trial. When asked if any other prints located at the scene
matched to other persons, at trial the evidence technician, Michael Estep, testified:”No we did
not get anything back on those.’’
Mr. Epstein testified at Warren’s PCR hearing. (PCR Tr. at pp. 14 - 46 - Appendix K).
When asked about his theory of the case, Mr. Epstein replied, “there were alternative
possibilities subject—wise — I tried to pursue that as part of my defense.” (PCR Tr. at p. 15 Appendix K). Mr. Epstein also testified that Warren’s brother, Larry, paid his retainer fee on
behalf of Warren. Id. When asked about Warren’s character, Mr. Epstein testified that he “didn’t
think of him from having known him as an individual who was going to shoot somebody —
especially an elderly man in the back but I knew that he was — my — my thought process was
that he was kind of caught up in a circle of people who were not beyond that capability.” (PCR
Tr. at pp. 15 - 16 - Appendix K). When asked:”Okay. But you thought it was outside his
character to do something like that?”; Mr. Epstein testified, “That would be correct.” (PCR Tr. at
p. 16 - Appendix K). Mr. Epstein also testified to his belief that Dana Roberson” was an
alternative suspect.” (PCR Tr. at p. 22 - Appendix K). Mr. Epstein remembered a trial witness
testified to having seen a “smaller person in a leather jacket with a black truck” who might have

-6-

been the culprit. (PCR Tr. at p. 24 - Appendix K). On reflection, he testified that’’[p]erhaps I
hadn’t done a good enough job in terms of investigating Ms. Roberson.” (PCR Tr. at p. 25 Appendix K). Mr. Epstein explained he had reason to believe Dana Roberson was what is
colloquially known as a ’’fence” , i.e. a person who is known to exchange illicitly obtained or
stolen property for money. (PCR Tr. at p. 43 - Appendix K). The facts suggested to Mr. Epstein
that she might have had something to do with this crime. (PCR Tr. at p. 43 - Appendix K).
Additionally, Mr. Epstein knew the Victim, Mr. Dorfman, was ’’known to purchase items of
unknown origin.” (PCR Tr. at p. 46 - Appendix K).
Forensic fingerprint evidence, specifically several fingerprints recovered from a
cellophane bag in Mr. Dorfman’s backroom near his body, point to another suspect, who police
identified as Aaron Gill. (PCR Tr. at pp. 35 -36; 65 - Appendix K) (Post conviction testimony of
Carl Epstein and Michael Knapp). Mr. Epstein did not utilize this exculpatory evidence. When
confronted with his failure at the PCR hearing, Mr. Epstein testified: ’’Aaron Gill I might have
suggested as an alternative suspect and I might have requested more specific discovery
pertaining to his whereabouts oh‘the occasion and any number of other things that suggested
somebody other than Mr. Warren shot Mr. Dorfman.” (PCR Tr. at p. 36 - Appendix K). Mr.
Epstein testified in addition to Ms. Roberson and the IMPD fingerprint expert, he also should
have questioned Larry. (PCR Tr. at p. 38 - Appendix K). The relevance of this foregone
investigation will be explored in the argument section of the brief. Larry testified that Ms.
Roberson and he were business partners who lived together at the time of Mr. Dorfman’s
murder. Larry testified at the PCR! hearing that he awoke the morning of
January 7, 1999 to find Dana Roberson gone from the couple’s bed. (PCR Tr. at p. 71 Appendix K). Further, Larry testified that Ms. Roberson owned a black truck at the time of the

-7-

murder which she had repainted to gray shortly after thereafter. (PCR Tr. at pp. 78 - 79 Appendix K). Larry reported that Ms. Roberson and he enjoyed a vacation to Key West shortly
after Mr. Dorftnan’s murder, staying several weeks. Ms. Roberson reportedly “had an enormous
amount of cash with her at the time ... enough to pay for an RV....” (PCR Tr. at p.79 Appendix K).
Although properly subpoenaed, Ms. Roberson failed to appear for the April 24, 2018 and
July 31, 2018 PCR hearings. (PCR Tr. at pp. 83 - 85 - Appendix K). Ms. Roberson finally
answers the subpoena for the November 13, 2018 hearing. (PCR Tr. at pp. 82- 84, 93 - Appendix
K). Ms. Roberson confirmed Larry and she were romantically involved, as well as business
partners. (PCR Tr. at p. 97 - Appendix K). Without Ms. Roberson invoking her Fifth
Amendment right against self- incrimination, the Post Conviction Court appointed Counsel and
delayed the proceedings. (PCR Tr. at p. 101 - Appendix K).
On December 18, 2018, Court reconvened for the final evidentiary hearing. Warren again
called Ms. Roberson as a witness. (PCR Tr. at p. 108 - Appendix K). Attorney T.R. Fox was on
call to advise Ms. Roberson. Without advance notice to Appellant’s Counsel, Ms. Roberson did
in fact invoke her Fifth Amendment right against self-incrimination. (PCR Tr. at p. 109 Appendix K). Petitioner testified briefly on his own behalf at the PCR hearing about his belief
that Mr. Epstein “didn’t do nothin[g]” after Mr. Epstein failed to investigate and subpoena
crucial witnesses, in particular Larry and Ms. Roberson. (PCR Tr. at pp. 111-112 - Appendix K).
Warren also testified he got the stolen credit cards from Ms. Roberson. (PCR Tr. at p. 12 Appendix K).

-8-

Finally, Appellant presented a copy of Ms. Roberson’s criminal history that included
impeachable offenses, i.e. crimes of deception that Mr. Epstein failed to utilize during pre-trial
and trial proceedings.
As cited above, Harold Warren was convicted of murder when he was found to have used
the victim’s credit cards shortly after the murder. (Appendix D - Brief of Appellant at 4, 7). The
murder victim was Indianapolis pawnbroker Jack Dorfman who kept shop in Irvington on East
Washington Street and was found shot to death in that shop with a single bullet to the head.
(Appendix D - Brief of Appellant at 5 - 6). There is no question that Warren used Dorfman’s
credit cards, and it is undisputed that Warren sometimes did business with Dorfman and was
seen in the shop a day or so prior to the murder. (Appendix D - Brief of Appellant at7). Police
gleaned evidence concerning Warren’s whereabouts after the murder from Dana Roberson, who
was Warren’s estranged brother Larry’s live-in girlfriend. (Appendix D - Brief of Appellant at 19
-21). The morning of Dorfman’s murder on January 7, 1999, Larry awoke to find Roberson
inexplicably gone from their bed. (Appendix B - COA op. at 6). Roberson was a known fence,
and Dorfman sometimes purchased items of unknown origin. (Appendix D - Brief of Appellant
at 10; Appendix B - COA op. at 11 12).

Warren’s trial counsel, Carl Epstein, failed to interview Larry and Roberson and failed to
uncover and present exculpatory fingerprint evidence on his client’s behalf. (Appendix B - COA
op. at 11 - 18). The evidence included the following: Roberson could not account for her
whereabouts on the morning of January ’7, 1999; Roberson mysteriously came up with a large
amount of money (enough to pay cash for an RV and take a trip to Key West with Larry) shortly
after Dorfman’s murder; Roberson had her truck repainted from black to gray shortly after the
murder and after the Victim’s friend spotted a black truck in the Vicinity the morning of the
-9-

murder; and the forensic analyst identified a complete one-handed set of five fingerprints,
recovered from the crime scene, that matched a different suspect, Aaron Gill. A friend of
Dorfman’s and neighboring business owner saw a person from the back entering a black truck
but did identify that person as a man and testified in a pretrial hearing the person did not fit
Warren’s description. (Appendix D - Brief of Appellant at 2 - 3).
Trial Counsel testified at Warren’s PCR hearing and admitted he failed to uncover and
present this evidence and that there was no strategic reason for his unprofessional mistakes.
(Appendix D - Brief of Appellant at 5). Larry testified at the PCR hearing. (Appendix D - Brief
of Appellant at. at 6 - 7). Roberson was called to testify and after failing to appear upon service
of a properly served subpoena, finally appeared at the last hearing and exercised the Fifth
Amendment right to remain silent. (Appendix D - Brief of Appellant at 7). The post-conviction
court denied relief. The post-conviction court did not discredit the testimony of Larry and
Epstein but rather determined that the mistakes did not constitute ineffective assistance of
counsel and that it was not necessary for counsel to investigate these facts. (Appendix D - Brief
of Appellant at 7 - 8).
On February 3, 2020, the Court of Appeals conducted an oral argument at the University
of Southern Indiana in Evansville. On April 8, 2020, the Court of Appeals issued its opinion
affirming the denial of post-coriviction relief. The Court of Appeals determined Trial Counsel’s
performance was deficient and Unprofessional. However, the opinion affirmed the denial of post­
conviction relief based upon the determination no prejudice resulted because the evidence did
not “exonerate Warren” and that he “has failed to show a reasonable likelihood the result of his
trial would have been different.” (Appendix D - Brief of Appellant at 17). In deciding a
reasonable likelihood the result of Warren’s trial wouldn’t have been different, Warren now

- 10-

argues the Indiana Court of Appeals invaded the province of the jury and has raised the
Strickland standard for ineffective assistance of counsel established by this Court stating he must
“exonerate” himself to receive relief for his Trial Counsel’s performance determined to be
deficient and unprofessional.

REASONS FOR GRANTING THE WRIT

Warren states the Sixth Amendment right to effective counsel requires proof (a) counsel’s
performance was deficient and (b) but for the deficient performance there is a reasonable
probability of a different outcome. If there is a reasonable probability a jury would have
reasonable doubt, then that is' enough.
Finding Trial Counsel’s performance deficient and unprofessional but nevertheless
affirming the post-conviction court’s denial of relief because the Petitioner failed to exonerate
himself is unprecedented. The opinion concluded “While the evidence revealed at the post­
conviction relief hearing potentially implicates other individuals, it does not exonerate Warren.”
(Appendix B - at COA op. at 17). That was the basis of the court’s conclusion there was not “a
reasonable likelihood the result of his trial would have been different.” Id. Warren believes the
opinion contradicts existing jurisprudence because the law does not require him to exonerate
himself; Strickland's prejudice prong only requires a reasonable likelihood of a different
outcome but for Trial Counsel’s deficient performance and unprofessional mistakes. Strickland
v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984)).
This problematic Warren opinion may have resulted from a misappropriation of the
sufficiency standard of review that would apply if this were a direct appeal. “[The] standard of
review for sufficiency claims is well settled. Appeal courts do not reweigh evidence or assess the
credibility of Witnesses; rather, they look to the evidence and reasonable inferences drawn

-11 -

therefrom that support the verdict and will affirm the conviction if there is probative evidence
from which a reasonable jury could have found the defendant guilty beyond a reasonable doubt.”
Houston v. State, 730 N.E.2d 1247, 1248 (Ind. 2000). This is not a direct appeal. The sufficiency
standard does not apply because, unlike in a direct appeal, here the jury had no opportunity to
hear from and see the erroneously omitted Witnesses and gauge their credibility and demeanor.
This is a totally different situation.

Warren had a right to have his case presented to the jury as well as the right to counsel.
U.S. Const., Amend. VI. Trial Counsel failed to present that case. Appendix B - at COA op. at
pp. 13 - 16); (Appendix D - Brief of Appellant at Brief at pp. 14 - 30; (Appendix G - Reply
Reply Brief at pp. 5-14). Using a person’s credit cards is not strong evidence of murder, just
theft or receiving stolen property. (Appendix B - at COA op. at 16 - 17). Here, where the omitted
evidence shows Roberson repainted her truck, was missing in action the morning of the murder,
mysteriously came up with a large amount of cash, and left the state to go to Key West just after
the murder, it is evident there was ample room for reasonable doubt concerning Warren’s guilt.
(Appendix D - Brief of Appellant at 11). The evidence also showed that Roberson was a fence.
Appendix B - COA op. at p. 11 n.8). The jury should have heard from these witnesses. The Sixth
Amendment right to counsel is rendered virtually meaningless if the only way to win is to prove
one’s innocence. Requiring Warren to show he would have been exonerated is not what
Strickland holds necessary.

J

There are plenty of Indiana appellate cases where post-conviction relief has been granted
with the evidence against the petitioner much stronger than was the evidence against Warren. For
example: in J.J. v. State, 858 N.E.2d 244 (Ind. Ct. App. 2006), the Court of Appeals reversed the
denial of post-conviction relief. In J.J., the State obtained convictions for burglary and theft
- 12-

against a 15-year-old who stole $800 from his friend’s parents’ coffee can. Id. at 247. The case
came up on appeal after the denial of post-conviction relief. The State urged the affirmation of
the conviction based upon the strength of the evidence, arguing: (1) J.J. was
present the day before the money came up missing and was shown the money; (2) J.J. was seen
handling and counting the money; (3) J.J. was present the next day when he and his friend D.S.
purchased a used car for $800 cash, the exact same amount of the missing money; (4) J.J.’s
mother repaid the money to its rightful owner; and (5) J.J. denied his identity when confronted
by police. Id. at 251. The State’s argument there was “no reasonable jury would have exonerated
[the Petitioner]” based upon the strength of the State’s evidence against him. Id.
The Court of Appeals rejected that argument in J.J. as it should have likewise done here:
“Although the circumstantial evidence would be sufficient to support a conviction, it is also open
to evidence of non-guilt. Therefore, the credibility of [a co-conspirator] is of great consequence
to a jury’s consideration of the case.” Id. at 252. The evidence against J.J. was far stronger than
the evidence against Warren was here. As explained in the Reply Brief as well as the oral
argument and the Reply Brief in Warren’s direct appeal, the evidence against Warren was mostly
circumstantial. See (Appendix Or- Brief of Appellant at Reply Brief at pp. 13 - 14). Clearly
Warren had the credit cards, but that in and of itself is not evidence of murder.
Whereas the Petitioner in J.J. was seen handling the missing money and purchased a car
with that exact same amount, here there was no eyewitness to the murder. There was no witness
who saw or could say Warren had a large amount of cash. This is important because Steve
Jordan testified Dorfman came into his shop that morning with a bundle of cash and his morning
newspaper and doughnuts. (Appendix D - Brief of Appellant at 6). It was Roberson not Warren
who came up with a large amount of cash. (Appendix D - Brief of Appellant at 11). And

- 13 -

Roberson was the person who drove a black truck which she had painted to gray shortly after the
murder and after Jordan saw a black truck parked suspiciously in the vicinity of the crime scene
prior to the murder. Unlike J.J., Warren did not deny his identity and did not purchase a vehicle
shortly after the crime. Whereas Roberson purchased an RV and went to the Florida Keys with
Warren’s brother Larry.
In Rowe v. State, 704 N.E.2d 1104 (Ind. Ct. App. 1999), the Court of Appeals overturned
"r

the Vigo County Circuit Court’ s denial of post-conviction relief in a case where the trial
evidence against the petitioner was very strong. The Petitioner in Rowe was convicted of murder
and two counts of attempted murder after he shot his parents and sister, killing his mother. Id. at
1106. Rowe’s own sister testified against him at trial and described how he looked before he shot
her: “his eyes were glossy as glass, his cheekbones were clenched, he had a really weird
expression on his face. His eyes-were just like they’re glaring. It didn’t look like John.” Id. The
issue for post-conviction was whether the State’s failure to provide discovery regarding Stefan
Hodges, who was Rowe’s lover and had a criminal history of theft and burglary convictions
violated the Constitution.
The Petitioner in Rowe argued the State’s failure to discover the witness’s criminal
history denied the defendant a fair trial because it prevented him from being able to properly
Confront the witness. Id. at 1107,'The State conceded its error but countered the Petitioner’s
argument by urging “reversal is unwarranted” because “ [‘JHodges was not a critical witness,
and [Petitioner] would have been found guilty without his testimony.[’] ” According to Rowe:
“The question is not whether the defendant would more likely than not have received a different
verdict with the evidence, but whether in its absence he received a fair trial, understood as a trial

- 14-

resulting in a verdict worthy of confidence.” Id. at 1109 (citing United States v. Bagley, 473 U.S.
667, 678, 105 S. Ct. 3375, 87 L. Ed. 2d 481, 1985 U.S. LEXIS 130, 53 U.S.L.W. 5084)).
In Warren’s case, there was no eyewitness, unlike in Rowe where the defendant’s sister
and father survived and lived to tell of the attack. Thus, the evidence in Rowe was markedly
stronger. The similarity between Warren’s situation and that of Rowe is the State failed to reveal
Roberson’s criminal history as it did with Hodges. Though the State did not utilize Roberson as a
witness, the evidence indicates it is she who led investigators to Warren. (Appendix B - COA op.
at 7, 11). Roberson was listed as a State’s Witness, but there is a line drawn through her name.
Similar to the State’s witness in Rowe, Roberson had a criminal history including theft
that was not disclosed to the defense. Roberson, unlike the witness in Rowe, was an alternative
suspect thus should be subject to a higher scrutiny. The Rowe court determined the discovery
deficiencies there prevented a fair trial and undermined “confidence in the outcome” not because
the missing evidence would have exonerated the defendant but because the verdict was not
worthy of confidence. 704 N.E:!2d at 1109.
Asking the Petitioner to exonerate himself or prove he would have been acquitted but for
Trial Counsel’s errors is not what the Constitution or Strickland requires. The Warren opinion
(2020 Ind. App. LEXIS 143 (Ind. Ct. App. 2020) sets the bar much too high and enfeebles the
Sixth Amendment right to counsel which is deeply rooted in this country’s history and tradition
and should be honored and enforced by this Court who establish the Strickland standard
precedent concerning ineffective assistance of counsel claims.
This new precedent belittles the Sixth Amendment and undermines the Bill of Rights
guarantee that all citizens shall have the right to a fair trial. The right to a fair trial is
sacrosanct regardless of whether the Court of Appeals thinks Warren committed the
crime; whether he committed the crime or not is immaterial.

- 15-

By ruling a Petitioner cannot prevail where he has not shown a jury would have
exonerated him, the Court of Appeals has set a dangerous precedent. This right to a fair trial is
sacrosanct regardless of whether Warren committed this crime; whether or not he committed the
crime is immaterial. What matters here is whether there is a reasonable probability a jury of his
peers could have reached a different outcome and whether the verdict was unreliable. Warren’s
trial was unfair due to his counsel’s decidedly unprofessional mistakes, and the published
opinion created a new hurdle that contradicts well-established and longstanding stare decisis.
When it substituted its judgment for what a jury would have concluded about reasonable
doubt concerning evidence that whs never presented, the Court of Appeals inappropriately
invaded the province of the jury, a jury that never even had the opportunity to consider the
evidence. Though there do not appear to be cases exactly on point, the Court could, conceivably,
analogize this situation to the longstanding rule appellate courts should not reweigh evidence.
This comes up more often in civil cases. See, e.g., S.&S. Truck Repairs v. Mofield, 556 N.E.2d
1313, 1314 (Ind. 1990) (noting rule: “Where reasonable minds could draw different inferences
from the evidence submitted, it is for the jury to make the determination of proximate cause” and
“It is improper for either this Court or the Court of Appeals to invade the province of the jury in
weighing such evidence”); see also Toledo, S. L. & W R. Co. v. Home Ins. Co., 53 Ind. App.
459, 463, 101 N.E. 1035, 1913 Ind. App. LEXIS 213 (Ind. Ct. App. May 27, 1913) (explaining
longstanding deferential rule regarding “such question [of fact] the Appellate Court will not
substitute its judgment for that ofthe jury, where the evidence is of such a character, that fair
minded men may honestly draw therefrom different conclusions.”). A similar issue arises with
jury instructions. See, e.g., Board of Comm’rs v. Flowers, 186 Ind. App. 597, 599, 201 N.E.2d
571, 1964 Ind. App. LEXIS 212 (Ind. Ct. App. October 14, 1964) (noting rule: “In such

- 16-

instructions the court is limited in that the court must not invade the province of the jury with
respect to any fact on which the jury is required to make a determination in arriving at its verdict.
If the court invades the province of the jury and such invasion is prejudicial to either of
the parties^] then error results which cannot be cured by other or subsequent instructions.”)
The Court may also wish to consider its own (fairly) recent U.S. Supreme Court
precedent, Weaver v. Massachusetts, 137 S. Ct. 1899,198 L. Ed. 2d 420 (2017), when analyzing
this issue. Weaver questioned the continued viability of the Strickland test’s outcome
determinative prejudice prong. Weaver indicated when a structural violation occurs, then a trial
may be found fundamentally unfair and thus violate the Sixth Amendment right to effective
counsel even when the defendant cannot or does not meet the outcome determinative
requirements of the traditional Strickland prejudice prong, ie. a reasonable probability of a
different outcome but for counsel’s mistakes. Weaver, 137 S. Ct. at 1907 (indicating the
doctrines of structural error and ineffective assistance of counsel are intertwined and may
influence the proper standard used to evaluate ineffective assistance of counsel claims). Warren
believes and has explained why and how the facts of his case met the standard imposed by a
traditional application of Strickland’s prejudice prong explained above. However, if for some
reason the Court concludes that the facts here do not meet the traditional application of
Strickland’s prejudice prong, then the Court should also consider Weaver’s alternative
parameters for prejudice, i.e. the demonstration of fundamental unfairness. The issue in Weaver
was whether the closing of the courtroom during voir dire was a structural error which impacted
the framework of the trial and rendered the process fundamentally unfair.
In Weaver, five justices assumed but did not explicitly determine there is another route to
finding prejudice for purposes of Strickland’s prejudice prong when a structural error occurs.

- 17-

The Weaver majority quoted Strickland, noting it “cautioned that the prejudice inquiry is not
meant to be applied in a [‘]mechanical[’] fashion.” Weaver, 137 S. Ct. at 1911 (quoting
Strickland v. Washington, 466 U.S. at 696)). Weaver highlighted Strickland’s emphasis upon
fundamental fairness: “For when a court is evaluating an ineffective-assistance claim, the
ultimate inquiry must concentrate on the [‘]fundamental fairness of the proceeding. [’]” Id.
Clearly, Weaver signals the high Court’s recognition there are certain situations where
the prejudice prong of Strickland in its typical application, that is the outcome determinative
“reasonable likelihood the result of [the] trial would have been different,” is amorphous and not
particularly useful or practical. (Appendix B - COA op. at p. 17). The Indiana Court of Appeals
attempted to establish some sort of bright line rule by imposing the additional hurdle of
exoneration. However, an exoneration is different than an acquittal. See, e.g., G.K. v. State, 104
N.E.8d 598, 601-02 (Ind. 2018) (explaining how an acquittal is not equivalent to an
exoneration). An acquittal can take place when the jury believes the defendant may have
committed the crime or probably committed the crime or quite possibly committed the crime and
yet harbors doubts. That is what reasonable doubt means. The right to a fair trial in a criminal
proceeding and counsel’s adequate representation go hand-in-hand.
The next question is whether Trial Counsel’s mistakes constituted a structural error such
that they affected the framework of the trial. Weaver listed three broad categories of structural
errors. First, there is the type of structural error which occurs when “the right at issue is not
designed to protect the defendant from erroneous conviction but instead protects some other
interest.” Weaver, 137 S. Ct. at 1908 (citing, e.g., the right to self—representation as explained in
Faretta v. California, 422 U.S. 806, 834 (1975)). Second, there are some structural errors that

- 18-

are deemed so simply because the “effects of the error are simply too hard to measure.” Weaver,
137 S. Ct. at 1908 (citing, e.g., Vasquez v. Hillery, 474 U.S. 254, 255 (1986) the high Court’s
denial of the San Quentin warden’s request to “abandon the rule requiring reversal of the
conviction of any defendant indicted by a grand jury from which members of his own race were
systematically excluded”) Finally, “an error has been deemed structural if the error always
results in fundamental unfairness.” Weaver, 37 S. Ct. at 1908.
Weaver explained this third category: “For example, if an indigent defendant is denied an
attorney or if the judge fails to give a reasonable-doubt instruction, the resulting trial is always a
fundamentally unfair one. See Gideon v. Wainwright, 372 U. S. 335, 348-345, 83 S. Ct. 792, 9 L.
Ed. 2d 799 (1963) (right to an attorney); Sullivan v. Louisiana, 5o8 U.S. 2’76, 279, 113 S. Ct.
2o78, 124 L. Ed. 2d 182 (1993) (fight to a reasonable-doubt instruction). It therefore would be
futile for the government to try to show harmlessness. ” Id.
Reasonable doubt is important. When a defense attorney fails to investigate, fails to
procure, and fails to confront multiple witnesses who he believes have evidence that someone
other than his client committed the crime, the entire framework of the trial is shaken. It stands to
reason the traditional application of Strickland’s prejudice prong, whether there is a reasonable
likelihood of a different result bht for counsel’s errors, is difficult to measure and quantify. The
Indiana Court of Appeals attempted to measure this likelihood by placing itself in the shoes of
the jury and determining they would not have exonerated Warren. However, that was not
appropriate for multiple reasons. One reason is the accused has the right to a jury of his peers, a
dozen of them. Second, the appellate courts do not reweigh evidence the jury actually had before
it (see civil cases cited supra), so it is even more of a stretch for the appellate courts to weigh

- 19-

evidence the jury did not have, especially in a criminal case where the State’s burden of proof is
much higher.
Thus, both the second and third categories of structural error apply here. As to the
prejudice prong and whether the Court should employ a traditional outcome determinative
application or should instead decide this case based upon fundamental unfairness an implication
that is for the Court, not Warren, to decide. However, what is at stake here is not just Warren’s
freedom and his right to a fair trial, it is the continued viability of the Sixth Amendment itself
and what that means for all persons who stand accused of crimes in Indiana. If the Sixth
Amendment does not give the accused the right to have his attorney investigate and confront
persons the attorney believes are alternative suspects, then what good does it do? This should not
be deemed harmless error, and the Court should uphold and enforce the cherished and timeworn
Bill of Rights guarantee of the right to counsel, a cornerstone of our Nation’s liberty and justice,
and not allow the Indiana Court of Appeals to establish a new and higher standard for ineffective
assistance of counsel claims in Indiana beyond the standard established in this Court’s precedent
in Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984).
CONCLUSION
Harold “Ray” Warren respectfully requests that this Honorable Court grant his Petition
for Writ of Certiorari, overturn ' the Indiana Court of Appeals’ precedent published in Warren v.
State, 2020 Ind. App. LEXIS 143 (Ind. Ct. App. 2020) setting the bar for the Strickland v.
Washington, 466 U.S. 668, 687,' 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984) Sixth Amendment’s
prejudice prong much too high when it employed the rationale that Warren’s evidence did not
exonerate him but merely implicated other potential suspects and remand the case with

-20-

s
4

instructions to grant post-conviction relief and schedule a new and fair trial with effective
counsel as guaranteed under the Sixth Amendment to the United States Constitution.
Executed on: September Jj$2020,

Respectfully submitted,

Petitioner / pro se

h So

-21 -

